<html>
<title> - CHEN GUANGCHENG: HIS CASE, CAUSE, FAMILY, AND THOSE WHO ARE HELPING HIM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
CHEN GUANGCHENG: HIS CASE, CAUSE, FAMILY, AND THOSE WHO ARE HELPING HIM

=======================================================================



                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,

                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 15, 2012

                               __________

                           Serial No. 112-145

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
74-235                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           KAREN BASS, California<greek-l>
TOM MARINO, Pennsylvania             DONALD M. PAYNE, New Jersey--
ANN MARIE BUERKLE, New York              deceased 3/6/12 deg.
ROBERT TURNER, New York              RUSS CARNAHAN, Missouri



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Pastor Bob Fu, founder and president, ChinaAid Association.......     5
Mr. Wei Jingsheng, founder and chairman, Overseas Chinese 
  Democracy Coalition............................................    15
Ms. Reggie Littlejohn, founder and president, Women's Rights 
  Without Frontiers..............................................    27
Ms. Chai Ling, founder, All Girls Allowed........................    33
Ms. Mei Shunping, victim of forced abortion......................    41

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Pastor Bob Fu: Prepared statement................................     9
Mr. Wei Jingsheng: Prepared statement............................    21
Ms. Reggie Littlejohn: Prepared statement........................    30
Ms. Chai Ling: Prepared statement................................    37
Ms. Mei Shunping: Prepared statement.............................    44
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, and Human Rights: Status of relatives 
  and supporters of Chen Guangcheng..............................    49

                                APPENDIX

Hearing notice...................................................    58
Hearing minutes..................................................    59


CHEN GUANGCHENG: HIS CASE, CAUSE, FAMILY, AND THOSE WHO ARE HELPING HIM

                              ----------                              


                         TUESDAY, MAY 15, 2012

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                  and Human Rights,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. I want to 
thank you all of you for joining us for this hearing to examine 
the status of Chinese human rights defender Chen Guangcheng, 
and that of his family and others who have been targeted by 
Chinese officials in connection with this case.
    This hearing will also focus on Chen's cause. Chen 
Guangcheng is among the bravest defenders of women's rights in 
the world. Chen defended thousands of women from the ongoing, 
most egregious systematic state-sponsored exploitation and 
abuse of women in human history--pervasive forced abortion, and 
involuntary sterilization as part of China's one-child-per-
couple policy--and suffered, as a result of his defense, cruel 
torture, degrading treatment, unjust incarceration, and 
multiple beatings.
    The sheer magnitude of this exploitation of women has been 
largely overlooked and trivialized by many, and even enabled. 
United Nations Population Fund has, for over 30 years, 
supported, defended and whitewashed the crimes against women 
and children Chen struggled to expose. That is why President 
Reagan, and more recently President Bush, defunded the U.N. 
Population Fund. In an indefensible reversal, the Obama 
administration has provided approximately $165 million to the 
UNFPA.
    Mr. Chen, as we know, who was blinded by a severe fever as 
an infant, is a self-taught lawyer. He garnered international 
attention in 2005 when he organized a class-action lawsuit 
against local officials who were forcing women to undergo 
abortions and sterilizations to comply with China's one-child-
per-couple policy. There were as many as 130,000 involuntary 
abortions and sterilizations performed in Linyi County in a 
single year. In response to his heroic efforts to defend women 
and men from forced sterilization and women from forced 
abortion, Mr. Chen was sentenced to 51 months in prison on 
trumped-up charges and then subjected to extralegal house 
arrest where the beatings continued.
    In response to his incredible escape on April 22nd and the 
events that followed, I chaired an emergency hearing about Mr. 
Chen, with the Congressional-Executive Commission on China in 
this same room on May 3rd. During that hearing, which took 
place just days after--after Mr. Chen left the U.S. Embassy in 
Beijing, Mr. Chen spoke to us from his hospital bed in Beijing 
over Mr. Bob Fu's cell phone. Mr. Chen indicated that he wanted 
to come to the United States for some time of rest, as he put 
it, noting that he had not had rest for the past 10 years. He 
asked for a face-to-face meeting with Secretary of State 
Hillary Clinton, who was in Beijing at the time. Regrettably, 
that didn't happen. He also expressed fear for the life of his 
family members, and said that he was most concerned about their 
safety, especially that of his mother and his brother. He was 
extremely concerned about their welfare, as well as their 
whereabouts.
    In that context Mr. Chen noted that security officers had 
installed seven video cameras and even an electric fence around 
his house in Shandong Province, saying that they ``want to see 
what else Chen Guangcheng can do.'' As soon as the authorities 
learned of his escape, they refused to allow his daughter to 
attend school. For these reasons, he was justifiably worried 
about the villagers and others who were helping him and what 
they were being subjected to, including severe, life-
threatening retribution.
    Reports that we have received since are corroborating Mr. 
Chen's fears. Following his escape from house arrest, Chinese 
officials started breaking into the homes of his family in the 
same village and rounding up those who had assisted him for 
interrogations. When local officials and thugs broke into the 
home of Mr. Chen's brother, Mr. Chen's nephew, Chen Kegui, 
reportedly tried to defend himself with a kitchen knife. He is 
now in a police detention center. I am extremely concerned, as 
is Chen Guangcheng, for his welfare, as well as that of other 
family members.
    The day after the emergency hearing on May 4, the Chinese 
Ministry of Foreign Affairs posted on their Web site the 
statement that ``[a]s a Chinese citizen, [Mr. Chen] may apply 
like other Chinese citizens according to the laws and normal 
procedures of the relevant departments.'' The U.S. Department 
of State also issued a press release announcing that ``[t]he 
Chinese Government stated today that Mr. Chen Guangcheng has 
the same right to travel abroad as any other citizen of China. 
Mr. Chen has been offered a fellowship from an American 
university, where he can be accompanied by his wife and two 
children. The Chinese Government has indicated that it will 
accept Mr. Chen's applications for appropriate travel 
documents. The United States Government expects that the 
Chinese Government will expeditiously process his applications 
for these documents. . . .''
    Now, 11 days later, Mr. Chen is still in the same hospital 
room with his wife and two children under de facto house 
arrest. Although Mr. Chen is under the impression that his 
application for a passport was made last Sunday when he was 
visited by a Chinese official, and under Chinese law blind 
persons are supposed to be able to apply orally for travel 
documents, he has not been notified of any further action on 
the application. With the exception of the half-hour each 
morning and afternoon that the children are escorted outside by 
one of the nurses, he and his family are not allowed to leave 
the hospital, and no one is allowed to see them.
    Anyone who attempts to see Mr. Chen risks severe 
retaliation. For example, on May 2nd, human rights lawyer Jiang 
Tianyong attempted to visit Mr. Chen in the hospital. He was 
forcibly taken away by police officers. It was later reported 
that Mr. Jiang was beaten so severely that he lost his hearing 
in at least one ear, and has been forced to move from Beijing 
to Hebei Province until after the 18th Party Congress.
    Mr. Jiang was here in the United States in October 2009 and 
testified twice before the Tom Lantos Human Rights Commission, 
an amazingly heroic man. Mr. Wolf chaired one of those 
hearings, and I chaired the other. One of his recommendations 
was that President Obama should speak with President Hu Jintao 
and Premier Wen Jiabao about freeing a number of political 
prisoners, including Chen Guangcheng, who was imprisoned at 
that time. Now Mr. Jiang himself must be included in the list 
of those on whose behalf the United States advocates for.
    Chinese nationals are not the only ones being prohibited 
from trying to meet Mr. Chen. The Foreign Correspondents Club 
of China reported in early May that officials threatened to 
revoke the visas of foreign journalists who entered the 
hospital without permission. I would note here that many 
journalists have demonstrated amazing courage and laudable 
perseverance in publicizing Mr. Chen's plight. It is largely 
due to their promotion of Mr. Chen's case that has reached this 
stage of a possible travel to the United States. I would 
earnestly ask them not to forget Mr. Chen and his family, and 
extended family, and others, like He Peirong, who are risking 
their security and their lives on his behalf.
    The story, unfortunately, is far from over.
    Before I turn to our panel of distinguished witnesses to 
discuss the current events, I would like comments by my fellow 
colleagues, some of whom are en route, to be made a part of the 
record, without objection.
    I would like to now ask our witnesses if they would come to 
the witness table, and I will introduce them to the 
subcommittee.
    Beginning first with Pastor Bob Fu, who was a leader in the 
1989 student democracy movement in Tiananmen Square and later 
became a house church pastor and founder along with his wife. 
In 1996, authorities arrested and imprisoned them for their 
work. After their release they escaped to the United States in 
2002 and founded the ChinaAid Association. ChinaAid monitors 
and reports on religious freedom in China, and provides a forum 
for discussion among experts on religion, law and human rights 
in China. Pastor Fu is frequently interviewed by media outlets 
around the world and has testified at U.S. congressional 
hearings, including the one on Chen Guangcheng, held by the 
China Commission. It was Bob Fu, whose cell phone and 
translation made that very important connection with Chen 
Guangcheng on May 3rd.
    We will then hear from Mr. Wei Jingsheng, who served two 
jail sentences totaling more than 18 years in China for his 
pro-democracy work. He was forced into exile in 1997, but 
continued to advocate for human rights and democracy in China. 
In 1998, Mr. Wei founded and became the chairman of the 
Overseas Chinese Democracy Coalition, an umbrella organization 
for many Chinese democracy groups. He is also president of the 
Wei Jingsheng Foundation and the Asian Democracy Alliance. He 
has written numerous articles and regularly speaks about human 
rights and democracy in China, including broadcasts via Radio 
Free Asia.
    I would note parenthetically that I first met Wei Jingsheng 
when he was released very briefly in 1993. He was such a highly 
prized human rights advocate that China thought if they 
released one dissident, they would procure the 2000 Olympics. 
When that didn't happen, he was rearrested and brutally beaten 
and tortured until his eventual release because he was close to 
death. So this is a truly remarkable man.
    And when I met him in China, he said that when Americans 
and Westerners coddle and treat in a kowtowish way the Chinese 
Government, they beat us more in the Chinese laogai and prison 
gulags. When you are tough and transparent and say what you 
mean and mean what you say, they beat us less. And I will never 
forget that lesson. He said that in a hotel in January 1994 
when we had dinner together. So a great man, and that was 
before his re-arrest.
    We will then hear from Ms. Reggie Littlejohn, who is 
founder and president of Women's Rights Without Frontiers, an 
international coalition that opposes forced abortion, 
gendercide, and sexual slavery in China. She has legally 
represented Chinese refugees in numerous political asylum cases 
and testified before the European and British Parliaments, the 
White House, and Congress. Ms. Littlejohn serves as the expert 
on China's one-child policy for the ChinaAid Association and 
has issued several groundbreaking reports from inside of China 
about the incalculable suffering caused by the coercive 
enforcement of the one-child-per-couple policy.
    We will then hear from Ms. Chai Ling, the founder of All 
Girls Allowed, an organization dedicated to restoring life and 
dying with dignity to girls and mothers, and to revealing the 
gross injustice of China's one-child policy. Chai Ling also 
established the Jenzabar Foundation and serves as one of its 
board members. The foundation supports the most inspirational 
and influential humanitarian efforts of students through grant 
opportunities. A key student herself during the 1989 Tiananmen 
Square movement, one of the most wanted by the Chinese 
Government, and a very heroic character, Chai Ling was 
subsequently named Glamour Woman of the Year and nominated 
twice for a Nobel Peace Prize. She is the author of the book, 
``A Heart for Freedom,'' and has already saved a number of 
little girls who would have been subjected to sex-selection 
abortions in China, who are now living today because of her 
intervention and that of her organization.
    We will then hear from Ms. Mei Shunping, who was born in 
1958. Because of the Cultural Revolution, she was unable to 
finish school. She and her husband were married in 1981, just 
after the one-child-per-couple policy was implemented. As a 
factory worker in a textile facility, she was forced by the 
Family Planning Commission to undergo five forced abortions. 
She came to the U.S. in 1999 and lives with her husband in New 
England. Ms. Mei has one son, who also lives in the United 
States. Her dream is to return to school and to finish her 
education.
    And I now yield to Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, for really putting 
together this very important hearing and for your continued 
work in championing human rights everywhere.
    I join you in concern for the outstanding issues in the 
case of Chen Guangcheng, as well as ongoing human rights issues 
in China. The case of Mr. Chen not only highlights these 
abuses, but also the need to evaluate the current status of 
U.S.-China relations. Although still unfolding, Mr. Chen's 
affair appears to mark a watershed moment for U.S.-China 
relations.
    Despite the many serious remaining concerns, I believe it 
is important to stress the significance of the U.S. reaching 
two deals on a sensitive crisis with the Chinese, as well as 
engaging in the annual Strategic and Economic Dialogue as 
planned. These talks underscore the vast array of national and 
economic security issues in which the U.S. and China must 
collaborate. We must continue to work toward greater 
understanding with regard to North Korea, Iran, the South China 
Sea, intellectual property rights protections, and currency 
manipulation, just to name a few.
    I believe efforts to improve cooperation officially and 
through enhanced public diplomacy will allow us to better 
address areas of mutual interest and those of disagreement, 
including the myriad of security challenges and the serious 
cases of human rights abuses like the ones that Mr. Chen has 
endured and those revealed in the course of his brave work.
    Beyond bilateral engagement to address these issues, the 
U.S. must also continue to pursue engagement through 
multilateral fora, including the U.N., to affect positive 
change in China. It is important to note, in fact, that the 
U.N. Population Fund in China was among the first organizations 
to raise Mr. Chen's rights and abusive practices in Linyi with 
Chinese Government officials. I look forward to hearing more 
about the status of Mr. Chen, and ways the U.S. and 
international community can ensure the safety of his family and 
his supporters.
    With China facing a generational leadership change later 
this year, coupled with major societal, economic, and 
humanitarian issues as a result of its one-child policy, I also 
hope we consider what the deal on Mr. Chen reflects about the 
internal political situation in China and appropriate U.S. 
actions.
    In closing, I once again want to thank the chairman for 
calling this important hearing and the witnesses for being here 
today to share their stories.
    Thank you. I yield back.
    Mr. Smith. Russ, thank you very much.
    I would like to now ask Pastor Bob Fu if you would proceed.

  STATEMENT OF PASTOR BOB FU, FOUNDER AND PRESIDENT, CHINAAID 
                          ASSOCIATION

    Pastor Fu. Thank you, Mr. Chairman. Thank you for your 
leadership. Thank you for your continuous support on behalf of 
a Chinese family.
    While we are still waiting for a real progress report about 
Chen and his close family members, any plan, or about the 
issuance of a passport from the Chinese Government, today I 
want to focus on the plight of his extended family members and 
his supporters. And especially I am deeply concerned about the 
Chen's nephew, Chen Kegui, and I want to really give you an 
updated report after talking with at least two of his lawyers 
and another legal representative in the past few days.
    Here is a chronology for what had happened to Mr. Chen 
Kegui. Of course, he has been under criminal detention since 
April 30, and then on May 9, he was formally arrested with the 
trumped-up charge called ``intentional homicide.''
    This is how the so-called homicide happened: After Chen 
Guangcheng's escape last month, the local official who has been 
directing the persecution of Chen, the town mayor Zhang Jian, 
led a group of people in a raid on the home of Chen's brother, 
Chen Guangfu, that began at about 11:30 p.m. on April 26th and 
continued to dawn. Without showing any IDs, they broke down the 
door, and jumped over the walls of Chen Guangfu's home, and 
then seriously beat Chen Guangfu and then his wife, Ren Zongju.
    And their son, Chen Kegui, thought some bandits had come to 
rob them. So, after he walked out of his bedroom, he was 
violently attacked for at least 3 hours, and according to the 
eyewitnesses and his own report, he was bleeding from his face, 
from his head, and out of those circumstances, it was purely 
out of self-defense and witnessing how his parents were 
violently beaten up, he injured several of the attackers with a 
kitchen knife.
    And then early morning of April 27, he himself, in a 
conversation recorded by a reporter for 50 minutes, he was 
talking about how he was violently attacked. He said he was 
waiting. He called the Chinese police, telephoned the 
equivalent of 9-1-1. He wants to surrender himself, but after 
waiting for a few hours, he was afraid for his life, so he 
walked away to another neighboring county, actually in the 
nearby Province of Jiangsu--the county's name is called the 
Xinyi county--and there he was trying to surrender to the 
neighboring province. And at least from my conversation with 
one of his lawyers, the attorney Liu Weiguo from Jinan, the 
capital city of Shandong Province, on April 29, that in a 
conversation he had with attorney Liu Weiguo, he said, you 
know, I am waiting, and I was waiting to go to that detention 
center to surrender myself. And then on April 30, obviously, he 
was under criminal detention, and later on he was charged with 
intentional homicide.
    And almost all of the lawyers who were waiting to handle 
Chen Kegui's's case, have lost their freedom of movement, or 
had their lawyer's license confiscated or are being held by the 
authorities. And some of them had been simply kidnapped. And I 
talked with Dr. Teng Biao, a professor of law at the Chinese 
University for Political Science and the Law, last night, and 
he said he just tried to go to Beijing where--that is his 
home--on May 12, and only found he was kicked out on May 13. 
That is the latest.
    And attorney Liu Weiguo, is losing his freedom of movement, 
so he is not allowed to travel to either Beijing or Shandong at 
all. And another attorney from Guangzhou, attorney Wu Chen--let 
us see, Wu Chen, only after he--the same day when he announced 
he will be the attorney for Chen Kegui, his license was being 
held by the Chinese Government, so he is not allowed to 
represent Mr. Chen Kegui's case. Based on the experience of Mr. 
Chen Guangcheng's trial or pretrial in 2005, we cannot have 
confidence that Mr. Chen Kegui will receive any fair trial.
    And let me just talk a little bit a few other cases about 
those supporters of Mr. Chen, who have experienced tremendous 
persecution in the past week or so just simply for being 
associated with Mr. Chen, or for raising awareness. One of 
them, his name is Lu Haitao, netizen from Beijing, just because 
he tried to visit Mr. Chen, he and his wife, who was 2 months 
pregnant, and kept being harassed and invited and forced to 
have tea with the public security officers since May 10, and 
then because of that harassment and the threat, on May 13, Mr. 
Lu Haitao's wife, Yang Lanlian, had a miscarriage. Their 2-
month-old baby is gone.
    And, of course, the other individuals like Mr. Jiang 
Tianyong, who has testified before you, Mr. Chairman, was 
beaten, and was also removed from Beijing as well.
    And there is another individual whose name is Song Ze. He 
is a member of Beijing's NGO, Gongmeng, who has been just 
raising awareness for Mr. Chen. But he, on May 6, this month, 
he had been put under criminal detention. Right now he is being 
held at the Fengtai District detention center.
    And another activist, Liu Guohui, who has been an advocate, 
and also a constant visitor, or trying to visit Mr. Chen in the 
past couple of years, and her passport recently was even 
declared invalid. So she has no way to even travel to overseas. 
And other lawyers, most of them who are not able to have any 
freedom of movement.
    So I am very, very concerned that the Chinese Government, 
especially the local authorities, will make trumped-up charges; 
based on this trumped-up charge, they will make a fake trial, 
expeditiously hand him a very severe sentence, and possibly if 
he is convicted, he could be sentenced to death.
    Where is the way out for Chen Guangcheng? Despite the fact 
that the United States and China have reached an apparent 
agreement and are committed to Chen Guangcheng's freedom and 
security, and Chen Guangcheng remains under de facto house 
arrest in the Chaoyang Hospital. And I talked with him pretty 
much twice a day, until last night and this morning we lost 
contact.
    And all the visitors are barred, including the U.S. 
diplomatic representatives are not allowed to visit him, and 
some of the Chinese supporters and friends who just tried to 
visit him were barred, or tailed and beaten.
    So all of this shows that the implementation of the 
agreement and the realization of the commitments are far more 
important than the agreement and the commitments themselves. I 
hope that Congress will do more in monitoring and urging the 
administration to ensure the civil rights of Chen Guangcheng 
and his family members are protected by the law, and Chen 
Guangcheng was allowed to enter the U.S. Embassy. Members of 
the Obama administration, including the Assistant Secretaries 
Kurt Campbell and Michael Posner, the State Department legal 
advisor Harold Koh, and Ambassador Gary Locke all made a great 
active efforts, and, of course, sacrificed sleep during the 
negotiation time.
    And although some aspects of the events that followed 
certainly were not handled properly by the administration, we 
are nonetheless pleased to see that high-level American and 
Chinese officials have promised to help Chen Guangcheng and his 
family come to the United States so they can rest and have 
further studies at a U.S. institution. And this shows that our 
country recognized that it is responsible, you know, for the 
outcome of the fate of Chen Guangcheng.
    We hope that Members of Congress can provide all of the 
tools that the administration needs to back their commitment 
and to follow through, and we are certainly looking forward 
that day when Chen and his wife and two children to touch the 
soil in the United States of America very soon, hopefully.
    Mr. Smith. Pastor Fu, thank you so very much for your 
testimony and for your insights.
    [The prepared statement of Pastor Fu follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. And I now yield to Wei Jingsheng, again, a 
political prisoner for 18 years, the father of the Democracy 
Wall movement.

STATEMENT OF MR. WEI JINGSHENG, FOUNDER AND CHAIRMAN, OVERSEAS 
                  CHINESE DEMOCRACY COALITION

    [The following testimony was delivered through an 
interpreter.]
    Mr. Wei. In January 1994, I met with Representative Chris 
Smith in Beijing for 3 hours, and then he was obviously 
concerned with the situation of the American policies about the 
Chinese human rights. So, he advised then-Secretary of State 
Warren Christopher to meet with me in Beijing in that spring.
    Since then, there was a very important negotiation going 
on, and that negotiation had not only affected the human rights 
situation in China, but also affected the U.S.-China 
relationship. At this point there aren't too many people that 
have the full knowledge of this history. And I think it is very 
important to reflect the full accounts of that negotiation, and 
because it will make a good reference for what is going on at 
the present now. So therefore, I give you a reflection of the 
history then, and because it is kind of long, so I will have my 
assistant read out my statement to you. Thank you.
    In September 1993, I was released half a year ahead of 
schedule with conditions restricting my personal freedoms. Such 
a release is called as a controlled release by Chinese law. The 
supervision would not end until March 29, 1994, until the end 
of my 15-year sentence.
    After being released from prison, I had done the following 
work: (1) helped to collect donations for individuals and 
organizations subjected to political prosecutions; (2) purchase 
bank stock shares as preparation for facilitating money 
transfers; (3) planned to establish independent workers union 
for workers; (4) planned to set up a nongovernment organization 
for artists to relieve them from exploitations of the 
government; (5) assisted in offering 1 billion Chinese yuan 
worth of stock in state-owned enterprises, and in proving with 
the facts after making huge profits that the government had 
been manipulating the stock market to exploiting mass 
investors.
    I met with Representative Chris Smith in January 1994, and 
we had talked for 3 hours in a restaurant in Beijing. And I 
give him the advice and we exchanged ideas as regarding how to 
push for human rights and democracy progress in China.
    On February 27, 1994, following the meeting with Chris 
Smith, I met with the U.S. Assistant Secretary of State John 
Shattuck privately in a restaurant. He asked me if I was 
willing to meet Warren Christopher, the U.S. Secretary of 
State, to discuss human rights issues in China when Christopher 
was to visit China in the following month. Shattuck mentioned 
about the debates in the U.S. Congress on decoupling human 
rights from trade issues and the potential risks of this 
meeting.
    I thought if my opinions would have some effect in 
preventing the U.S. from moving backwards on human rights 
issues in China, I would be willing to take such risks and meet 
with the Secretary of State. Shattuck mentioned that my 
opinions has been passed on to President Clinton by Senator 
Kerry, and already had a positive effect on the setup of Radio 
Free Asia. He hoped that my views would help the Secretary of 
State Christopher. We discussed and agreed on some details of 
the meeting with the Secretary of State Christopher during his 
visit.
    In the morning, about 2 or 3 days later, police who had 
been in charge for my surveillance come to my home and said 
their superior would like to talk to me. Later they brought me 
to a resort hotel near the Ming Tombs Reservoir, saying that I 
should relax here and wait for their superior. I asked whom I 
would meet and what to discuss, but got no answers.
    On the next day, an official came, who claimed to be a 
senior official representing the highest authority in the 
Chinese Government. By observing the way he casually dismissed 
the police officer to have a private talk with me, I could tell 
that his status should be true. Based on the fact that he had 
to leave for 1/2 hour after our talk, then come back with 
responses, I would assume there were officials with higher 
rankings nearby who monitored our conversation and then made 
the decisions.
    At the very beginning of the talk, this official said that 
it was a negotiation because they needed my help. He said that 
he knew that I had an appointment to meet the U.S. Secretary of 
State and also knew my opinions. ``We could not change your 
opinions and will not want to do so, but we wish you would not 
meet the U.S. Secretary of State.''
    I said that that is not possible. Because I had agreed to 
meet, I could not break the promise. He said that they could 
offer things in exchange. ``We know what you want to do,'' he 
said. ``If only you will not meet the U.S. Secretary of State, 
we will agree to what you want.''
    I said I did not believe things could be so simple. Why was 
it so important for me to meet or not with the U.S. Secretary 
of State? Why would you agree to let me to do the things that 
you had been prohibiting us from doing, just because of this?
    He said, ``You might not know how important that the Sino-
U.S. trade is to us; taking away those false figures, 70 
percent of our real profit was from the foreign trade, and the 
70 percent of that come from the Sino-U.S. trade because of the 
U.S. market's profit was higher. You might think we, the 
Communist Government, would collapse without American profit, 
which is true. I would want to do the same, if I were you, but 
the Chinese people would suffer, and many Chinese companies 
would go bankrupt. Since you love the people so much, we had 
guessed that you would agree to our offers.''
    I said, ``Not really. I believe that the collapse of the 
Communist Government and the establishment of a democratic 
system would be more beneficial to the Chinese people. It will 
be the lesser of two evils. And the interests of Chinese would 
be better compensated in the future.''
    He said, ``You have described the issue too simple. You 
were once in our internal circle and should know our politics. 
Do you really think it would lead to trade sanctions?''
    I said, ``Why not?''
    He said that the interests of both China and the United 
States have dictated that the trade sanctions, if any, would be 
short-lived. The businesses of countries would not allow them 
to continue to the degree that I would need; that is, resulting 
in the collapse of the Communist Government.
    I said, in that case, you had no need to negotiate with me. 
You also know that I would rather stay in prison than give up 
the principles.
    He said, ``We knew that. We understand you better than your 
comrades, but we also hoped that you could think about that 
carefully. Someone would have to hold the responsibility for 
even short-term sanctions, and the highest authority would be 
forced to step down because of that. That is why someone wanted 
to make a fuss on you and why we had to protect you from 
getting into trouble.''
    He also said, ``You might laugh at me for such a low-level 
lie, but I have to tell you that it was the truth. You are now 
standing at the focal point of the Sino-U.S. relationship. If 
you were in trouble, whether real or false, the highest 
authority would bathe in shit. Only after he steps down could 
someone take this position. Therefore, some people are eager to 
get you in trouble to achieve their own objectives. When they 
reach their goals, they would cooperate with the U.S. 
Government to resolve the trade issues, but you would lose your 
chance to reach your own goals. You should know better than the 
stakes in this deal.''
    I said, ``I still do not believe in your promises. I will 
need an assurance. The stepping down of Jiang Zeming, might not 
be a bad thing, and the person replacing him might want to 
compromise with us as well.''
    He said, ``We would agree with the several things that you 
want to do. Would you think about it again? I have something to 
do and will come back in \1/2\ hour.''
    He gave me a piece of paper with the offers listed on it. 
The first thing was to release political prisoners, including a 
list with 35 names. The next three were also what I really 
wanted to do; that is, establish workers' unions, establish 
artists' own businesses, and purchasing bank shares and help 
with receiving and transfer of humanitarian donations.
    After more than an hour, the official, whose last name was 
Guo, came back and asked how I thought about that. I said, 
``What you agree to means nothing. The establishment of a 
workers' union requires approval from the Ministry of Civil 
Affairs. An artist's company requires approval from the 
Ministry of Culture, and the purchase of bank shares requires 
approval from the People's Bank. Those were not under the 
authority of the judiciary branch. Therefore, all of what you 
have said sounds like lies.''
    He said, ``I repeat again that I am representing the 
highest authority to negotiate with you. All these items are 
within our scope of power. When the time comes, I will help you 
to complete all the procedures.''
    I still say that I could hardly believe what he just said.
    He said, ``How about this: We will offer you one more offer 
that you would be able to see. In addition to releasing the 
political prisoners, providing that you do not betray your 
promise, we will not arrest any of your people,'' by which he 
means all pro-democracy activists.
    I said, ``But you just detained a number of pro-democracy 
activists recently who were not on your list. What about 
them?''
    He said those who got detained recently had not get into 
the legal procedures yet. ``If you give me 1 day, I will get 
all of them released. We could decide tomorrow whether you 
would accept our offer. Tomorrow you could make phone calls to 
verify if we had the ability to keep our promise.''
    The next day I called several friends and verified that all 
of those detained were indeed released without either 
conditions nor explanations, but I was still inclined not to 
accept their offers.
    This official seems very anxious and almost lost his 
posture and told me that ``you must know that we are already 
bearing a great deal of risk. We have also explained it within 
the Communist Party. If you still disagreed, then we will have 
to arrest you, which would just be playing into the hands of 
the other side, and all of the offers to you would be blown 
away.''
    Then he added, ``The Americans are not as reliable as you 
might think, and could ultimately reach a compromise with a new 
leader. Then political prisoners would be round up as usual, 
and then you would not be able to complete anything that you 
want to do. You should think about what is at stake. Let me 
give you a worst-case scenario. Even if we recanted in the 
future, you at least got the benefit of having the political 
prisoners released. The other side might not even give you this 
benefit.''
    After that time, I felt the credibility of his words were 
pretty high, so I accepted their offers, and I made a detailed 
plan for me to leave Beijing to seek medical treatment, and I 
politely declined to meet Secretary of State Christopher. I 
felt that I definitely would not get those offers through the 
meeting with the Secretary of State. And if the U.S. were to 
insist on checking on the human rights issues in China, it 
would not have canceled the annual review of the Most Favored 
Nation status.
    The offers included the provision that immediately after 
Secretary of State Christopher had left Beijing, I could go 
back to the city and continue to do what I wished to 
accomplish, and they would fulfill their remaining offers.
    On March 29, 1994, while I was Jinan, they notified me two 
things: First, I had completed my prison sentence and would no 
longer be under their control, and all my civil rights were 
restored. Second, although Secretary of State Christopher had 
already left China, the situation had changed somehow, and they 
hoped I would spend some time relaxing in the South and return 
to Beijing after 1 or 2 months. I rejected the second request, 
and insisted on going back to Beijing according to our original 
conditions. I thought that by doing so, I could verify if they 
had the ability to fulfill their promise.
    Two days later I entered the highway from Tianjin to 
Beijing, but the entire highway was closed with just the car 
carrying my friend and me and four police cars surrounding us. 
When arrived at the exit of Tong County we were blocked by more 
than 100 police officers, including agents from several 
different departments of the Public Safety Bureau, and 
officials from the State Security Bureau, and the prosecutor's 
office.
    A police officer, who I was familiar with, and who has been 
in charge of my surveillance for many days, told me that the 
current situation was too complicated, and they did not know 
what was going on either. He asked me not to make a big scene, 
and then they were doing backroom negotiations. Later a 
policeman who I did not recognize came and showed me the 
subpoena. They took me and the businessman who was going to 
transfer stock shares of 1 billion Chinese yuans' worth to a 
counterfeit antique-making company in Tong County.
    I slept until the afternoon and then heard the policeman I 
knew arguing with someone. I heard a strange voice saying that 
we got orders that no one was allowed to meet this man alone. 
The policeman I knew said, ``We got the instructions from our 
superior that we must meet with him alone. You have no 
authority to listen to our conversation, and your superior has 
agreed to this.''
    Then they made phone calls. After that, the police officer 
I knew took me to a private room outside the restaurant and 
told me that after departure of the Secretary of State 
Christopher, the debate within the Communist Party got more 
heated. The other side did not believe the Americans, and also 
did not believe that I did not influence the Americans. They 
insisted on handling me by the dictatorship theory of the 
Communist Party, and they did not think that they should abide 
by terms of agreement with me; otherwise, it would be a loss of 
the spirit and principle of the Communist Party. Their boss was 
dealing with this conflict, and they asked me to be more 
patient. I said I did not know that internal affairs, but my 
patience has a time limit.
    On the third day, I formally informed the police who were 
guarding me that according to the Law of Criminal Procedures, a 
subpoena for interrogation could not last longer than 3 
consecutive days. Unless they got an arrest warrant, I would 
leave by my own this evening. They said, ``You just wait. We 
will go immediately to the prosecutor's office to get an arrest 
warrant.''
    At the evening, I asked if they got the arrest warrant. 
They said they have not yet. The prosecutor's office will not 
issue an arrest warrant. But they already had a residential 
surveillance certificate issued by the Public Safety Bureau, 
which did not need approval from the prosecutor office.
    I said, ``Residence under surveillance means that I would 
stay in my own house, and that there would be no restrictions 
for my personal freedom. I just cannot leave your surveillance. 
What are you going to do? It is illegal detention.''
    They laughed at me and said I should not try to use their 
legal loopholes. Their laws would be interpreted by them, not 
by my own understanding. Although there was none, they could 
create a procedure, create a precedent for me in regarding this 
residence under surveillance. And because it did not get into 
the legal procedure, they did not even need to notify my family 
members. I would not have any rights provided by the law.
    They started an illegal detention against me that lasted 
for 18 months, without newspapers and TV, without any contacts 
with the outside world.
    From what I learned later, at least by the summer of 1995, 
the promise of releasing political prisoners and no arrest of 
my people had indeed been kept for about 1 year. I think it was 
because the trade sanction would not be lifted as smoothly, and 
that the American people still cared about human rights 
situation in China. Otherwise Jiang Zemin would not be able to 
get a compromise between the trade and the theory of 
dictatorship under the Communist Party.
    From this procedure we can learn several features 
concerning negotiation with the Chinese Communist regime. One, 
they are only restrained by their interests, but are not bound 
by their promises. This is because fundamentally they do not 
recognize the common knowledge and reason, but only their great 
ideals. This is the same as all evil cults. Therefore, by 
insisting on staying in China, Mr. Chen Guangcheng made a wrong 
judgment due to a lack of common knowledge, and the U.S. 
Government did not let him learn such a common knowledge and 
thus brought to him the trouble that will come up.
    Two, the Chinese Government is not a whole, but consists of 
various interest groups. The struggles within those factions 
lack rules, and national interests often become bargaining 
chips between their own negotiations. Promises made by one 
faction often become targets to be attacked by other factions. 
Noncompliance of agreement is a common happening in China. The 
U.S. Government, by believing in promises made by one 
particular faction without any assurance, has made the mistake 
of political judgment.
    Three, taking a hostage first and then making negotiations 
is a traditional way of negotiation by the Chinese Communists. 
In their ideology, obtaining maximum benefit regardless of the 
means is a legitimate method against those who are deemed as 
not fit to their ideals. They would use any means to advance 
their interests, which is their official theory. By returning 
Mr. Chen Guangcheng to the hands of Chinese police, the U.S. 
administration has made yet another mistake of political 
judgment, and the world will pay an extra price for it.
    I am sorry I used the extra time.
    [The prepared statement of Mr. Wei follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you for that very, very comprehensive 
look. And I think part of what your testimony helps to do is to 
ask the question, the very pertinent question, ``How highly do 
we value political prisoners, human rights, democracy?'' and 
that the Chinese Government and the leadership weighs the 
resolve and the commitment of the U.S. side in its bilateral 
relationship? And if we are not committed, all in, if you will, 
on human rights, they take the measure of our resolve or the 
lack thereof and respond accordingly.
    And I think you talked about, you know, the leadership and 
especially that it is not monolithic. There are people inside 
the government who might even want to do the right thing, but 
if we are now folding or not extending our very serious resolve 
to all players, Chen, his wife, his two children and the 
others, we, unwittingly perhaps, but we nevertheless give up 
what we might otherwise obtain.
    So I would like to now ask Ms. Reggie Littlejohn if she 
would present her testimony.

  STATEMENT OF MS. REGGIE LITTLEJOHN, FOUNDER AND PRESIDENT, 
                WOMEN'S RIGHTS WITHOUT FRONTIERS

    Ms. Littlejohn. Thank you, Mr. Chairman.
    Honorable members of the subcommittee, ladies and 
gentlemen, I am grateful for this opportunity to address the 
subcommittee here during this very sensitive time of 
negotiations on behalf of Chen Guangcheng, his family, and his 
supporters. I have been asked to testify concerning two of his 
key supporters. One is He Peirong, also known as Pearl, and the 
other one is Jiang Tianyong, one of his key leaders of his 
legal team.
    Pearl, as many of you know, has played a key role in 
organizing the support for Chen Guangcheng for years. And last 
time I testified, which was on May 3rd, she had been detained 
for almost a week, and I voiced a concern that she might be 
tortured, that the Chinese Communist Party might be pressuring 
her to disclose the other members of her network. But we raised 
the issue of her case very strongly in that hearing. 
Congressman Smith raised it very strongly, and the very next 
day she was released.
    So I have Skyped with her twice now, the day after she was 
released and then also on Saturday, and she has asked me to 
read a statement to the committee thanking everyone for the way 
that her case has been raised in visibility, which she believed 
is what has resulted in the fact that she was not tortured 
during that detention.
    And as Congressman Smith just said, echoing what Wei 
Jingsheng has said, that this kind of accommodation of 
kowtowing to the Chinese Communist Party and trying to 
basically exercise quiet diplomacy is very ineffective, but it 
is rather when you have transparent, powerful advocacy that 
people are protected.
    So Pearl said,

        ``I would like to thank everyone who fights for our 
        freedom, activists, Congressman and Congresswomen, as 
        well as the U.S. Government, the State Department, 
        Secretary Clinton and the United States. I hope I will 
        visit this great country one day, but now I just want 
        to stay with my friends in China. What I want is for 
        all my friends to be safe.''

    Now, that is very courageous on her part, because even 
though Pearl was not tortured during this most recent 
detention, she has suffered significant violence. Specifically, 
on January 10, 2011, she drove to Chen's village where plain-
clothes guards smashed her car outside of his home. Then on May 
30, 2011, she went to Yinan County for Chen's case, and plain-
clothes guards kidnapped, robbed, and beat her. And, in fact, 
they struck her face 30 to 40 times. She was subjected to a 
painful position for 4 hours while she was being driven in a 
car, and then she was dumped on the road.
    Then on June 6, 2011, she went to Yinan County again for 
Chen's case, and the local officials again kidnapped her and 
robbed her. Plain-clothes guards drove her for over 4 hours and 
kicked her out of the car into a field, where they tried to 
stuff her socks into her mouth. Then they tied her up and 
touched her breasts.
    Despite the violence that she has suffered, Pearl wants to 
remain in China for the protection of her friends, and I just 
think that her courage and commitment is to be commended and 
admired.
    Jiang Tianyong has taken up several sensitive legal matters 
and has long been a member of Chen's legal team, and for this 
he has suffered violence on a number of occasions. Most 
recently, according to media reports, Jiang Tianyong, simply 
tried to visit Chen Guangcheng and was beaten so severely that 
it appears that he has lost hearing in one of his ears. Then 
after he was severely beaten, and it became clear that Chen's 
nephew, Chen Kegui, was being charged with intentional 
homicide, which carries a death sentence, Jiang Tianyong stood 
up for Chen Kegui and said that the charge of homicide with 
intent has been trumped up, and that it really should be 
wounding with intent.
    So this is, again, he had just been beaten, and he is 
immediately standing up publicly for Chen's nephew. I just 
can't even fathom the kind of courage that these people have.
    So he has now reached an agreement with officials that he 
will not try to visit Chen again; that he will not meet with 
foreign media; and as you know, he has left Beijing and is now 
in Hebei.
    This is not the first time that Chen Guangcheng has 
suffered violence. On November 10, 2009, Jiang Tianyong and I 
both sat on a panel at a hearing before the Tom Lantos Human 
Rights Commission, as it was called by Congressman Smith, and 
we both testified on the one-child policy. Jiang Tianyong 
testified concerning the cases that he was assisting Chen on, 
the ones for which Chen was detained. And Women's Rights 
Without Frontiers released the Chen Guangcheng report on Chen's 
birthday on November 10, 2011, and then at this hearing in 
English on December 6, 2011.
    But Jiang Tianyong was telling about these cases where a 
woman had been forcibly aborted up to the 9th month of 
pregnancy, where people were sleeping in the fields to avoid 
family planning police, where forced sterilizations were taking 
place. It was just suicide. There was all sorts of horrible 
things that he was reporting on. His testimony and my testimony 
were similar in the sense of the gravity of the cases that we 
were exposing, but that is where the similarity ended. I was 
able to go home safely to my family.
    At the end of that hearing, Congressman Smith kindly 
invited the various people who were testifying up to his 
office. And at the end of that meeting, Jiang Tianyong said, 
``Look, I am really worried. If anything happens to me, will 
you please watch out for my wife and my child?'' And that 
statement just struck my heart, of the courage that these 
people have, people who live in China, to come to the United 
States and testify. They are risking not only their own safety 
but that of their families, to expose the truth of what is 
going on there, not simply so that we will know what is 
happening but so that we will take effective action to try to 
help free the people of China from these horrific human rights 
abuses.
    Several days later, when Jiang Tianyong did return to 
China, his fears materialized. He was beaten, dragged away by 
four cadres right in front of his daughter, who was screaming, 
and his wife was beaten. And so then I got a call from 
Congressman Smith and immediately flew back to Washington to 
speak at a press conference for him to be released.
    Despite this violence, Jiang Tianyong has persisted in his 
bravery. In February 2011, Chen Guangcheng and his wife, Yuan 
Weijing, released through the China Aid Association a video 
showing the horrific conditions of their house arrest, and for 
that they were severely beaten and left without medical 
attention. And then soon after that, a group of Chen's lawyers 
got together to try to talk about how they might help him. And 
you have to understand also that the Arab Spring and the 
Jasmine Revolution are a backdrop to this conversation, as 
well. But many of those lawyers were detained, including Jiang 
Tianyong and Teng Biao.
    Jiang Tianyong was detained for 60 days, and he endured 
beatings, shouts, shackles, blindfolds, and no sunlight during 
those 60 days. And, according to a media report, he was banged 
in the head so severely that it caused significant memory loss. 
And apparently what they did was they would use water bottles 
to beat him in the head. And he had so much memory loss he 
could not even remember his Skype password or how the furniture 
was arranged in his bedroom when he got out.
    I believe that the systematic persecution, detention, and 
torture of Chinese human rights lawyers appears to be a 
deliberate decimation of the Chinese human rights bar. And as 
an attorney myself, I am very, very concerned about China and 
the rule of law. How can China say that they care about the 
rule of law or that there even is a rule of law when people who 
are trying to uphold the rule of law are themselves detained 
and tortured and have their licenses revoked?
    Although Pearl and Jiang Tianyong appear safe for the 
moment, who knows whether the Chinese Communist Party will 
retaliate against them if and when Chen is able to come to the 
United States. Women's Rights Without Frontiers calls upon the 
United States Congress and the Department of State to raise the 
issue of the safety of Chen's supporters, who are heroes in 
their own right.
    Thank you.
    Mr. Smith. Ms. Littlejohn, thank you very much for that 
testimony.
    [The prepared statement of Ms. Littlejohn follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would like to now ask Chai Ling if she would 
present her testimony to the subcommittee.

     STATEMENT OF MS. CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Thank you, Chairman Smith. Thank you for your 
persistent 30-plus years of fight to defend the victims in 
China and uphold the human rights conditions in China. Thank 
you for giving me this opportunity to share today about the 
cause that Chen Guangcheng has fought to uphold.
    By now, you have heard much about Chen Guangcheng's 
miraculous escape. As the media firestorm surrounded him last 
week, and you probably read details about his journey to 
Beijing, you learned about the twists and turns in the 
diplomatic saga that followed. Incredibly, U.S. officials 
fretted about the timing of Chen's arrival at the Embassy. 
After he left, they downplayed his concerns for his family's 
safety. Several days ago, an American official casually told 
The New York Times, ``The days of blowing up the relationship 
with China over a single guy are over.'' Maybe they prefer the 
days of, you know, Mr. Wei Jingsheng.
    But anyway, seeking genuine protections for Chen and his 
family should hardly have blown up the relationship. But more 
to the point, it grieves me to hear Chen dismissively referred 
to as a single guy. He is one man, it is true, but he is a 
symbol, a hero, in the eyes of women, children, and the poor in 
China. Why? Because he defended them when it was costly and 
when no one else in China would. He has lived out the words of 
the prophet Isaiah, who said, learn to do right, seek justice, 
defend the oppressed, take up the cause of the fatherless, and 
plead the case of the widow.
    Often missing from last week's news stories was the cause 
that defined Chen Guangcheng's work and led to his 
imprisonment. It explains why he is a hero to so many in China 
today. I want to highlight this cause. It is the one that we 
share with Chen through our work at All Girls Allowed. The one-
child policy formally sanctions violence against women. Chen 
knew this. Chinese authorities jailed him in 2006 after he 
filed a class action lawsuit on behalf of the women who had 
undergone forced abortions and sterilizations because of the 
policy.
    I would like to share some of the stories and images that 
will show you what is happening in China right now even as I 
speak. I should warn you that these stories are disturbing. 
They will give you a personal glimpse at the gendercide, or 
systematic elimination of girls, taking place in China, where 
men outnumber women by 40 million. They show the brutality of 
forced abortions. They show why Chinese women face a climate so 
oppressive that a woman takes her life every 3 seconds in 
China.
    The first story illustrates how severely the one-child 
policy can affect a single family. This is Deng Lourong, the 
picture you can see on the PowerPoint presentation on the 
screen, who lives in Anhui Province. She is the second daughter 
of two parents who violated the one-child policy because they 
desperately wanted a boy after Lourong's birth. So in her 
family they had three girls.
    But after Lourong's birth, officials demolished the family 
home and confiscated their belongings. Two years later, 
Lourong's mother again gave birth to a girl and disappeared 3 
days later. Her father fled from the family planning officials 
and left the three girls in the care of their grandmother. 
Undeterred, officials detained the girl's grandmother in 2002 
and left them without a guardian. During the night, a man broke 
into their room and raped the 12-year-old Lourong. Her sisters 
managed to obtain the release of their grandmother after this, 
but the elderly woman died a month after she returned home. The 
rapist, meanwhile, was sentenced to a mere 5 days in 
administrative detention.
    Within 3 years, Lourong was sold as a child bride to a man 
twice her age. Her sisters were also sold by traffickers and 
have not been found as of today. When a German reporter and 
Chinese volunteers found Lourong's father last November, he 
told them that Lourong's husband had turned her into a 
prostitute to earn income for him. He beats her frequently and 
sold her body to bachelors in that area. Deng was in a poor 
mental state. She would roam the mountains for over a week 
sometimes before returning to the house.
    Remember, all of this was set into motion by the 
enforcement of the one-child policy upon this family and the 
lack of value assigned to girls and women in China.
    A second story is Ma Jihong. Last October, officials 
dragged Ma into a van. That is Ma Jihong's picture. When she 
was heavily pregnant with her third child, she died during a 
forced abortion procedure. That is the picture. It is kind of 
gruesome. And her family did not know hours afterwards. Her 
husband and two surviving daughters have no real resources to 
take. The third picture is--I believe that is her picture. 
Yeah, that is her family. And they make under $2 a day as a 
cotton farmer.
    A final story came out less than 2 months ago on Weibo, a 
Chinese version of Twitter. It is just an image, but a chilling 
one. A 9-month-old baby is dropped into a bucket of water 
following a full-term forced abortion. According to the source, 
the infant's parents did not have a permit for their second 
child. You can see in that image in the water bucket, that is 
the baby's body.
    So I wish I could tell you these stories were rare, but 
they are not. They are a mere glimpse into the dark environment 
that the one-child policy created for women. This is a darkness 
into which Chen Guangcheng tried to shine a light.
    I want to challenge you, honorable Members of Congress, to 
view your callings as servants of the people in light of these 
words from Isaiah. ``If you do away with the yoke of 
oppression, with the pointing finger and malicious talk, and if 
you spend yourselves on behalf of the hungry and satisfy the 
needs of the oppressed, then your light will rise in the 
darkness and your night will become like the noonday.'' This 
challenge also applies to President Obama and Secretary 
Clinton. It is my fervent prayer that your light will rise in 
the present darkness that consumes many at this very moment in 
China.
    Please continue to press for Chen Guangcheng's freedom and 
the assurance of safety for his family and his supporters. 
Their freedom is not secure yet, and you are in a position to 
act. I urge you to compel China to honor its word and its own 
laws.
    If you are concerned that such a cause is not realistic or 
pragmatic enough--I know you are present here because you are 
not thinking that way, but we know there are leaders thinking 
that way who are not present here--I humbly ask you to do what 
is right. It was not economically pragmatic for William 
Wilberforce to seek an end to the British slave trade. It was 
not expedient for Martin Luther King to speak out against 
injustice and then land in a Birmingham jail. Ronald Reagan was 
not acting with calculated diplomacy when he said, ``Mr. 
Gorbachev, tear down this wall.'' I can think of many instances 
in history where men and women sacrificed pragmatism for the 
sake of higher principle. Somehow, they always end up on the 
right side of history. I hope America would stand on the right 
side of history in confronting this largest injustice in our 
time, and God will honor your courage.
    Finally, though we are sitting here in the halls of power, 
we can take heart in the fact that our power is weakness when 
compared to the strength of our God. We can face injustice 
without fear because we serve a God who is just, hears our 
prayers, and can overcome any power. Jesus said, ``You may ask 
me for anything in my name, and I will do it.''
    We have long prayed for these injustices in China to cease. 
We know that God is faithful. The only reason why these 
injustices still happen is that he chose to raise a man and 
woman among us to end them, and he is patient with us. God can 
and will end this injustice of forced abortion and the one-
child policy. We know that. It may be our generation of 
privilege to carry out his task.
    Here is a final story that gives hope. It shows that God 
does answer prayers. Last year, Nie Lina was arrested for being 
4 months pregnant with a permit. Our team met and prayed for 
her release, knowing that a forced abortion was imminent. But 
family planning officials, you know, decided not to go through 
the procedure at the last minute, and she was released. Nie 
Lina gave birth to a baby girl 5 months later. So that is her 
baby girl.
    But on the night of December 5, 2011, we learned Nie Lina 
was arrested again, this time for petitioning the government 
about her property, which officials had confiscated. She, her 
70-year-old mother, and her 3-month-old baby was in the illegal 
``black jail.'' The guards were hardly feeding her, and her 
baby was crying from hunger because she could not produce 
enough milk. The guards told her that she would be there for 
another 6 months at the least. You all probably remember that 
there was a hearing the next day on December 6 on behalf of Liu 
Xiaobo. You allowed us to all pray for Nie Lina and Chen 
Guangcheng and Liu Xiaobo. Many of you all joined us in this 
prayer. Thank you, Brother Bob Fu, Sister Reggie Littlejohn, 
for all of your prayers.
    This is what happened 20 hours later at midnight on the 
next day in China, because they were watching us at 4 o'clock 
a.m. their time. Nie Lina was blindfolded, together with her 
mom was blindfolded, and was drove off and dropped off outside 
of Beijing 2 hours away and released alongside together with 
her baby and her mother. It was a dramatic answer to our 
prayers. And Chen Guangcheng--despite the fact that Chen 
Guangcheng has not obtained the full freedom, but his ability 
to escape from a massive prison was no less a miracle either.
    Your words are so important. Media attention is also so 
important, and prayers are very important as we speak publicly. 
As Ms. Reggie Littlejohn also reminded us, the Chinese 
Government watches us, the world watches us, and acts in 
response to our conviction. So, with your permission, I would 
like to end this testimony with a prayer.
    Heavenly Father, you, Lord, hear the desires of the 
afflicted and you encourage them and you listen to their cry. 
You hear the cries of people in China calling for your justice 
and mercy. You hear our cries as we, too, plead for your 
justice to roll down like a mighty river. Today, we lift Chen 
Guangcheng and his family and his supporters up into your care, 
for we know you will finish what you have started and you will 
surely one day bring them to complete freedom.
    We lift up to you these leaders here, these servants of the 
people. I pray to you for raising them up and bringing them 
here today. I ask you to move their hearts and inspire them to 
assist the families and friends of our brave friends in China.
    Lord, please protect us all from being indifferent when we 
are suffering. You say that if a single sparrow falls, you 
notice. How much more do you notice the plight of your 
daughters, Ma Jihong, Deng Lourong, and the millions of other 
women and the babies oppressed by the one-child policy?
    Please inspire the men and women here today to use their 
authority in a way that serves the least of these in the world 
you have created. And unto Him, who is able to do immeasurably 
more than all we can ask or imagine, according to His power 
there is at work within us, to Him be glory in the church and 
in Christ Jesus throughout all generations forever and ever. 
Amen.
    Thank you.
    Mr. Smith. Ms. Chai, thank you very much for your 
extraordinary testimony and the importance of prayer, because 
they certainly need it, and we all do. So thank you.
    [The prepared statement of Ms. Chai follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. I would like to ask Ms. Mei if you would 
proceed.

    STATEMENT OF MS. MEI SHUNPING, VICTIM OF FORCED ABORTION

    [The following testimony was delivered through an 
interpreter.]
    Ms. Mei. Mr. Chairman and honorable Members of Congress, I 
am very grateful for the opportunity to testify today before 
Congress to expose America and the world to how the one-child 
policy in China destroys lives and the rights of women.
    My name is Mei Shunping. I had an assumed name, a name 
called Liuping. I was born in 1958 in Tianjin, China, and 
arrived in the United States in 1999. Before coming to America, 
I worked in a state-owned textile factory in Tianjin. The 
majority of the workers in the factory were young women, so the 
family planning policy was implemented strictly. I am only one 
of these many women whose lives were destroyed by the policy--
the women that Chen Guangcheng tried to help so courageously.
    I got married in 1981 and gave birth to a son 2 years 
later. According to the policy at that time, women who gave 
birth were required to have an IUD implanted or one of the 
spouses was required to be sterilized. At that time, I had 
swelling in my right kidney for undiagnosed reasons so doctors 
refused to implant an IUD in me. Without the IUD, I became the 
prime target for surveillance by the factory's family planning 
commission.
    Without the IUD, I became pregnant. From 1983 to 1990, 
because of the one-child policy, I had to have five forced 
abortions on the following dates: September 28, 1984; December 
17, 1985; March 20, 1986; May 5, 1989; and December 14, 1990. 
All the operations were recorded in my medical history. I 
suffered greatly because of the inhumane one-child policy.
    There were many severe methods of surveillance and 
punishment to prevent unplanned pregnancies and above-quota 
births. My factory's family planning commission used three 
levels of control: At the factory level, in the factory clinic, 
and on the factory floor. If one worker violated the rules, all 
women would be punished. Workers monitored one another. Women 
of reproductive age accounted for 60 percent of my factory 
floor. Colleagues were suspicious and hostile to each other 
because of the one-child policy. Two of my pregnancies were 
reported by my colleagues to the family planning commission. 
When discovered, pregnant women would be dragged and to undergo 
forced abortions. There was no other choice. We had no dignity 
as potential child bearers.
    By order of the factory's family planning commission, every 
month during their menstrual period women had to undress in 
front of the birth planning doctors for examination. If anyone 
skipped the examination, she would be forced to take a 
pregnancy test at the hospital. We were allowed to collect a 
salary only after it was confirmed that we were not pregnant.
    The day of my fifth and last abortion--December 14, 1990--
was the saddest of my life because I was unable to prove that I 
wasn't pregnant within a 10- to 15-day period. The birth 
planning doctor in the factory clinic found out about my 
pregnancy that day. Officials from the factory family planning 
commission drove to City Police Hospital and forced me to have 
an abortion in the birth planning department. It was my first 
operation in that hospital. All my previous abortions happened 
in the Central City Hospital.
    After the abortion, the doctors, without my knowledge, 
implanted a metal IUD in my uterus. When I learned of the 
procedure, I protested that I had a kidney disease and could 
not keep the IUD, but they completely ignored me. The doctors 
just gave the bill to my husband and told him to pay.
    While my husband argued with the doctors, I was recovering 
in the hospital bed. When I left the operating room, still 
weak, I could not find my husband. I was told that he had been 
arrested. I collapsed, crying, from the physical toll of the 
two operations and the emotional shock. A kind nurse tried to 
comfort me, but she was pushed away by a man who also 
threatened to have me arrested by the police. I felt alone, 
sick, and weak.
    Afterwards, I learned that my husband had been sentenced to 
criminal detention without a trial for violating and 
obstructing the one-child policy, disturbing the normal 
operations of a hospital, and disturbing social peace. My 
husband was released 15 days later.
    I was in great pain from the metallic IUD and the weakness 
of the abortion and almost did not want to live. The arrest of 
my husband deprived me of care of my family. My young son did 
not know what was happening and kept crying for his father. I 
did not know what to do and could only hold my son and cry with 
him. Even now when I think of all of this, my heart shudders 
and the pain throbs.
    Those painful 15 days of separation became the catalyst of 
my eventual failed marriage. My body suffered great damage from 
all the forced abortions. I gradually grew afraid of a family 
life with my husband. I tried to find excuses to refuse any 
intimate demands from my husband. I grew to hate him after the 
IUD was inserted because I blamed my suffering on his 
unwillingness to be surgically sterilized.
    After the fifth abortion and the IUD insertion, my factory 
also gave me a serious administrative warning and fined me 6-
months' wages. Afterwards, I had to go to the factory clinic 
every month for exams to make certain that I had not privately 
taken out the IUD or become pregnant. I carried this IUD in my 
body for over a decade before I came to America.
    My husband's detention accelerated the demise of our 
marriage. He was suspended from his job and censored and then 
lost his job in 1991. Our family immediately sunk into 
financial difficulty. We argued frequently. I was laid off at 
the end of 1995.
    I was still considered of reproductive age. The family 
planning commission of my neighborhood commission took up the 
job of monitoring me. In early 1997, I spent 40 days taking 
care of my terminally ill mother and missed a monthly pregnancy 
check. Agents from the family planning commission waited at my 
home to drag me to the exam. When they pushed me to the ground, 
I fell and hurt my neck vertebrae. My spirit completely 
collapsed after this. I attempted suicide but was stopped by 
family from jumping out of the building.
    With the help of old friends, in 1999 I escaped the China 
that humiliated and destroyed me and came to the free soil of 
America. My husband came to the U.S. a year later. We were 
unable to mend our past grievances and divorced in 2001.
    I became extremely depressed after the divorce. But at the 
suggestion of my friends, I started attending church, where I 
felt the warmth of Christ's family. And then Lord Jesus led me 
to give up the bitterness in my heart bit by bit. I reunited 
with my husband in 2009, and we joined together again after I 
was baptized last year--I think 2 years ago.
    Now we live in the great family of Christ in the free land 
of America. I feel happiness but know that back in China there 
are millions of women who are suffering like I did. Every day, 
thousands of young lives are being destroyed. I beg everyone to 
save them and wish everyone to join me in prayer for them.
    Let the love of our Heavenly Father, the grace of Jesus 
Christ and the Holy Spirit fill their hearts and release them 
from the hellish suffering. In the name of our Lord Jesus 
Christ, we pray. Amen.
    Mr. Smith. Thank you so much, Ms. Mei. Thank you for your 
courage in bringing every woman's story in China to the 
attention of this subcommittee.
    [The prepared statement of Ms. Mei follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. And by extension--and I am very grateful that C-
SPAN is here--that men and women in their homes will hear what 
every woman goes through in China and has been going through 
since 1979 when the one-child-per-couple policy was first 
instituted.
    I think it is very important to point out that, in China, 
brothers and sisters are illegal, and women are treated as 
criminals if they have a child without explicit government 
permission. I know Chai Ling herself has suffered the gross 
exploitation of being forcibly aborted. And so many women, by 
the millions, by the tens of millions, have suffered this 
degrading and this horrific abuse of women. And, again, that is 
what Chen Guangcheng's mission was, and that is what his cause 
was. And for that, he has been so brutally mistreated. And so I 
do, again, want to thank you for that.
    I would like to now turn to my distinguished colleague, Ann 
Marie Buerkle, who is a registered nurse. She is also a lawyer, 
a former assistant attorney general for the State of New York. 
And she also chairs the Subcommittee on Health for the Veterans 
Affairs Committee.
    But I understand Bob Fu is going to join us in a moment. We 
do have Chen Guangcheng on the phone. And then we will go to 
Ann Marie Buerkle. Again, he joined us on May 3 and provided 
very useful insights, to say the least. And so we will yield to 
him momentarily so he can speak from his hospital bed again in 
China.
    Ann Marie, if you wanted to say a few words before we 
begin.
    Ms. Buerkle. Thank you, Mr. Chairman.
    And I want to thank the chairman for his steadfast pursuit 
of human rights throughout the world. As you mentioned, 30 
years, he has just been vigilant for all human rights.
    And I want to thank all of you for being here today, for 
your pursuit of justice and human rights in China. Future 
generations--you talked about some of the past, with Martin 
Luther King and Ronald Reagan--future generations are going to 
look at you for your devotion to creating a free China. So 
thank you all very much for your courage, for your willingness 
to be here and testify before us. We so appreciate all that you 
do, and we just want to work with you to shed a light on this 
terrible injustice that exists in China.
    Mr. Smith. We will go to questions momentarily, but you 
know, Ms. Mei mentioned how her husband was detained. Again, I 
think for the purposes of understanding the depravity of the 
one-child-per-couple policy, I invited, with the help of Harry 
Wu, a woman who ran a program in Fujian Province. She went 
under the pseudonym of Mrs. Gao.
    When she came here, she said, you don't understand, America 
and the West and really the rest of the world, what a priority 
it is to the government to impose this one-child-per-couple 
policy and to use and employ forced abortion and forced 
sterilization. She self-described before this committee in this 
room just several years ago at a hearing that I chaired, she 
said, ``By day I was a monster, by night I was a wife and 
mother of one child.'' And she said that they used detention 
against family members, the way Ms. Mei talked a moment ago, to 
hold family members, to put them in prison, as they looked to 
find a woman who was trying to escape the family planning 
cadres. That is the reality that goes on every day in China 
that is so grossly under-appreciated by so many of us in 
policymaking positions.
    And, again, when you talk about that kind of abuse of women 
that is unprecedented in world history, where an entire couple 
of generations now of Chinese women have been made to suffer 
that cruelty, with barely a peep of dissent from the Obama 
administration, from many of our friends in the European Union 
and elsewhere, and then when you get groups like the UNFPA, the 
U.N. Population Fund, who say repeatedly that the program in 
China is totally voluntary, when it is totally involuntary, it 
is a whitewash that has no comparison either.
    So thank you for sharing that detail that is so extremely 
important, that it is not just, if that wasn't enough, the 
mother herself, the woman herself who is so hunted and degraded 
by the Chinese dictatorship, they also look at the rest of the 
family in a way that parallels what is going on with Chen 
Guangcheng. It is not just him and his family, it is the rest 
of his family, the extended family.
    And, without objection, I will put in the record a list of 
nine members of his family, and a list of six friends, who we 
are deeply concerned about--and that is not the extent of it; 
some other friends might be in trouble, as well--that we know 
the government has either arrested, detained, beaten.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. And then including friends like He Peirong, 
which Reggie Littlejohn spoke so passionately about, and Jiang, 
who has suffered so much, including the loss of his hearing. 
And that was just a few weeks ago, just a few weeks ago.
    We do now have Chen Guangcheng on the line, and I would 
like to--Ann Marie, would you join us?
    Mr. Chen, you are on. Welcome back again.
    Mr. Chen. [Mr. Chen's testimony and answers to member 
questions were delivered via teleconference and through an 
interpreter.]
    I just want to talk about what had happened to my other 
family members after I escaped from my own home.
    On April 26, around midnight, a group of Chinese 
Government--the local government hired thugs, led by the local 
township leader Mr. Zhang Jian, raided my elder brother Chen 
Guangfu's home at midnight. Around midnight, this group of 
thugs by the Chinese, the local authorities, just broke into my 
elder brother's home and started beating him violently. And my 
elder brother was taken away by these thugs without any 
reasoning.
    And then they came back and started beating up my nephew, 
Chen Kegui. They used sticks and violently beat him up. And 
then for 3 hours he is bleeding on his head and his face, was 
not stopped. And so this was so violent that Chen Kegui, 
according to my knowledge, had to defend himself. This charge 
against my nephew, Chen Kegui, for so-called intentional 
homicide, is a totally trumped-up charge. And for himself at 
his own home to be accused of committing this crime of 
intentional homicide against the intruders is totally absurd 
and irrational, unreasonable.
    So this guy, this township leader, Mr. Zhang Jian, had led 
from 40 to sometimes 80 officials, guards and thugs, raided my 
home in the past year and beat me and my family seriously. And 
so this is a pattern already. It is not the first time he had--
against my family.
    After my nephew was beaten up and he actually was waiting 
to surrender himself, the police came back again and violently 
beat up my sister-in-law. So my brother, of course, was taken 
away without any reasoning by the authorities. And then the 
attorney, Si Weijtang, who has already got the commission paper 
signed by my nephew's wife, went to Yinan County, and even 
though he had the signature by Chen Kegui's wife, the detention 
center and the public security officers in Yinan county refused 
for him to meet with Chen Kegui by calling that document as a 
fake document, although they know it is true. And also they 
just want to have my nephew's wife to come and to surrender 
herself.
    And what has been done by these Yinan public security 
officers is a total violation against the Chinese Constitution 
and the Chinese criminal law. And, of course, those charges 
against my nephew for self-defense is in contradiction of 
Chinese law, as well. The same tactic of the Yinan County that 
was used against me in 2006 when they tried every way to 
prevent my attorneys from defending me at my trial, is now 
being used again against my nephew, Chen Kegui. And I do think 
those charges are trumped-up charges. And those people in Yinan 
County have already been on the wrong side, on opposite side of 
the rule of law in China.
    And this is so far what I have learned about my extended 
family members in Yinan County. So right now I am not able to 
communicate with them anymore because all their communication 
tools were confiscated already.
    Thank you for your attention.
    Mr. Smith. Mr. Chen, very briefly, I have invited to the 
dais the people who are testifying today on your behalf: First, 
Bob Fu; the great Wei Jingsheng; Reggie Littlejohn; Chai Ling; 
and Ms. Mei. And we are also joined by Congresswoman Bass and 
Congresswoman Buerkle from New York.
    Briefly, the focus of the hearing has been about your 
safety and your wife and children, with a particular emphasis 
on your cause, fighting as you did so bravely to defend women 
from forced abortion, and to rally congressional support and 
hopefully executive branch support and hopefully worldwide 
support for your extended family as well as your friends like 
He Peirong.
    If I could ask you very briefly, has the United States 
Government, our Embassy, been able to in any way make contact 
with your extended family and your friends who are at grave 
risk and are suffering beatings?
    Mr. Chen. For that question, I am not very clear on the 
specifics, but I do know, however, the U.S. Embassy has been 
communicating with me every day.
    Mr. Smith. If I could, your wife and your children, how 
well are they doing under this enormous burden?
    Mr. Chen. They are doing fine, especially my two children. 
They kept telling my wife and I that this is such a wonderful 
place, we can play outside. You can tell, from what they told 
my wife and I, how terrible they have been back to our 
hometown. They were only allowed to have a 1-hour outing every 
day.
    Because my wife and of course children had been under such 
a long time of difficulties with malnutrition and with low 
blood pressure when I saw them under these circumstances, I 
felt very saddened.
    Translator. One suggestion from the panel of the witnesses 
is to suggest to Mr. Chen to hire his own lawyers, not to 
accept the government-appointed lawyers for his family members.
    Ms. Littlejohn. This is Reggie.
    I am wondering whether there is any lawyer that has been 
accepted to be the lawyer for Chen Kegui. I mean, we have heard 
that there are 13 who offered some--at least 1 has been beaten 
and at least 1 has had his license revoked. And I am wondering 
specifically about Teng Biao. I understand that he has offered, 
and I am wondering how he is doing. We haven't had much news of 
him.
    Mr. Chen. I do know that many lawyers are waiting and 
wanting to go, and I feel they will be able to go. They are 
planning to go.
    Mr. Smith. Mr. Chen, Ann Marie Buerkle just asked, do you 
know that all of America is listening to your voice right now? 
There are large numbers of people from the media here, and C-
SPAN is broadcasting this throughout America. What would you 
like to tell the American public?
    Mr. Chen. I want to extend my gratitude and thankfulness to 
all those who cared and loved my family and myself and our 
situation, especially to American people who have shown that 
you care about the equality and justice. These are universal 
values. And I am very, very grateful to all of you.
    Mr. Smith. Mr. Chen, Chai Ling would like to say something.
    Translator. I think the question from Ms. Chai was, we are 
very proud of you as a hero of America and Chinese, and the 
many millions of Chinese women are very encouraged by your 
courageous act.
    And what Mr. Chen just answered, he said, ``I am not a 
hero, I just do what my conscience asks me to do. I cannot be 
silent and cannot be quiet when facing these evils against 
women and children. And so this is what I should do.''
    And Ms. Chai Ling said, ``Many, many Christians all over 
the world have been fasting and praying for you.''
    And Mr. Chen said, ``What I have done is just out of my 
conscience and conviction. I cannot be silent when we see and 
face these kind of evils.''
    And Ms. Chai said, ``You are the first man to stand up for 
this 30 years of Chinese one-child policy, on behalf of the 400 
million Chinese babies who are forcibly aborted and killed. So 
we praise you and we thank you and appreciate you.''
    Ms. Chai. We will stand with you until the very end, and 
you will be set free.
    Mr. Smith. Mr. Chen, thank you so very much. We will 
continue--this is the third hearing. The first one was last 
November when we thought you had disappeared. This is the third 
hearing. And I can assure you, as chairman of both the 
Congressional-Executive Commission on China and as chairman of 
the Africa, Global Health, and Human Rights Subcommittee of the 
House of Representatives, we will never cease in our advocacy 
for you, your family, your extended family, your friends, and 
the very important human rights cause that you espouse, 
defending women from the crime of forced abortion and forced 
sterilization. So thank you so very much.
    Mr. Chen. Thank you.
    I want to let you know I have been praying for you. And 
your courage has inspired all of our women, and we have been 
praying for you every day and one day that this evil one-child 
policy will be abolished soon.
    Mr. Smith. Mr. Chen, thank you.
    Mr. Chen. I have a final word that I want to emphasize. 
What had happened to my family and to my extended family 
members are just a total violation of the Chinese own law, 
including Chinese relevant law about the family planning 
system. And so what they have done is just totally in violation 
of the Chinese own law. So they should be held accountable by 
the Chinese own laws.
    So that is what I want to emphasize. Thank you.
    Mr. Smith. Thank you so much, Mr. Chen.
    I think we are close to concluding this hearing. And I want 
to thank our very distinguished witnesses and ask them if 
perhaps they might have some final comments they would like to 
make.
    I do--and I say this with all due respect to the President 
of the United States. I am concerned when the United States 
Government, when President Obama was asked about Chen 
Guangcheng specifically and human rights, he said, ``No comment 
on Chen,'' and that, human rights, ``it comes up.'' My hope is 
that we are in the process of a game-changing reappraisal of 
our deprioritization of human rights in China, and perhaps 
elsewhere in the world but absolutely in China, where, 
wittingly or unwittingly, we have enabled this terrible crime 
of forced abortion and forced sterilization to occur while we 
have looked askance and acted as if it wasn't happening.
    Chen Guangcheng reminds us in a very powerful way, in the 
suffering that he has endured, that he stays in solidarity with 
the women of China, as do I, as does Ann Marie Buerkle, as do 
so many Members of Congress, as does this panel.
    So if you would like to make any concluding statements, 
because I think we have heard it all with Chen's own voice just 
a moment ago. So would anybody want to make any final statement 
before we conclude the hearing?
    Ms. Chai. Yeah, I would just like to say, Chairman Smith, 
you are such a hero and inspiration to all of us too. There is 
no one else in this country that has fought and stood together 
with the victims like Mei Shunping and Chen Guangcheng for the 
past 30 years. Thank you for your persistence. May God bless 
you and all the work you are doing.
    And we do believe this year China's one-child policy and 
genocide will come to an end. So we encourage the American 
leaders, including President Obama, Secretary Clinton, and 
other congressional leaders to join us, join the people, and to 
bring about an end to this horrific, the largest crimes against 
humanity on earth in this year.
    Thank you.
    Mr. Smith. I want to thank our distinguished witnesses.
    We will continue pursuing, obviously, Chen's case until it 
is resolved successfully. And the focus that he has brought on 
the hideous one-child-per-couple policy will increase in terms 
of focus, scrutiny. And, God willing, it will end.
    The hearing is adjourned.
    [Whereupon, at 3:05 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
